   DEPARTMENT OF HEALTH & HUMAN SERVICES                                             Office of Inspector General
                                                                                     Washington, D.C. 20201
                                              OCT 2 7 2008




TO:            Kerry Weems
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          Daniel R. Levinson   ~ ~. ~
               Inspector General


SUBJECT:       Nationwide Review of the Centers for Medicate & Medicaid Services Health
               Insurance Portability and Accountability Act of 1996 Oversight (A-04-07~05064)


The attached final report provides the results of our review of the Centers for Medicare &
Medicaid Services (CMS) oversight and enforcement of covered entities' implementation of the
Health Insurance Portability and Accountability Act of 1996 (HIPAA) Security Rule.

On August 21, 1996, Congress enacted HIPAA (P.L. No. 104-191). HIPAA established national
standards that protect the confidentiality and integrity of electronic protected health information
(ePHI) while it is being stored or transmitted between entities. The HIPAA Administrative
Simplification was added to the Social Security Act. The HIPAA Security Rule is a component
of the HIPAA Administrative Simplification security standards.

On October 7, 2003, the U.S. Department of Health and Human Services delegated to CMS:
(I) the authority and responsibility to interpret, implement, and enforce the HIPAA Security
Rule provisions; (2) the authority to conduct compliance reviews and to investigate and resolve
complaints of HIPAA Security Rule noncompliance; and (3) the authority to impose civil
monetary penalties for a covered entity's failure to complywith the HIPAA Security Rule
provisions. The Final Rule for enforcement of this delegation became effective on February 16,
2006.

Our objective was to evaluate the effectiveness ofCMS's oversight and enforcement of covered
entities' implementation of the HIPAA Security Rule.

CMS had taken limited actions to ensure that covered entities adequately implement the HIPAA
Security Rule. These actio:ijs had not provided effective oversight or encouraged enforcement of
the HIPAA Security Rule by covered entities. Although authorized to do so by Federal,
regulations as of February 16,2006, CMS had not conducted any HIPAA Security Rule
compliance reviews of covered entities. To fulfill its oversight responsibilities, CMS r{{lied on
complaints to identify any noncompliant covered entities that it might investigate. As a result,
Page 2 – Kerry Weems


CMS had no effective mechanism to ensure that covered entities were complying with the
HIPAA Security Rule or that ePHI was being adequately protected.

Although reliance on complaints alone was ineffective for identifying noncompliant covered
entities, we noted that CMS had an effective process for receiving, categorizing, tracking, and
resolving complaints. CMS has developed and implemented detailed procedures for receiving
complaints, communicating with filed-against entities, coordinating with the Office for Civil
Rights for complaints with privacy elements, developing corrective action plans, and remediating
complaints.

Ongoing Office of Inspector General audits of various hospitals nationwide indicate that CMS
needs to become more proactive in overseeing and enforcing implementation of the HIPAA
Security Rule by focusing on compliance reviews. Preliminary results of these audits show
numerous, significant vulnerabilities in the systems and controls intended to protect ePHI at
covered entities. These vulnerabilities place the confidentiality and integrity of ePHI at high
risk. During our audit, CMS began taking steps to conduct compliance reviews. After we
completed our fieldwork but before we issued our report, CMS executed a contract to conduct
compliance reviews at covered entities.

We recommend that CMS establish policies and procedures for conducting HIPAA Security
Rule compliance reviews of covered entities.

CMS did not agree with our findings because it believes that its complaint-driven enforcement
process has furthered the goal of voluntary compliance. CMS agreed, however, that compliance
reviews are a useful enforcement tool as part of a more comprehensive enforcement strategy.
CMS agreed with our recommendation to establish specific policies and procedures for
conducting compliance reviews of covered entities but emphasized that compliance reviews are
just one of several tools that can be used to promote compliance.

Although CMS’s complaint-driven enforcement process has furthered the goal of voluntary
compliance, the significant vulnerabilities we identified at hospitals throughout the country
would not generally have been identified in HIPAA Security Rule complaints. In fact, CMS has
received very few complaints regarding potential HIPAA Security Rule violations. Including
compliance reviews of covered entities to its oversight process will enhance CMS’s ability to
determine whether the HIPAA Security Rule is being properly implemented.

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
P.L. No. 104-231, Office of Inspector General reports generally are made available to the public
to the extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, the final report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and IT Audits, at (202) 619-1175 or through e-mail at Lori.Pilcher@oig.hhs.gov or
Page 3 – Kerry Weems


Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750 or
through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-07-05064 in
all correspondence.


Attachment


cc:
Wynethea N. Walker
Director, Audit Liaison Staff
Centers for Medicare & Medicaid Services

Anthony Trenkle
Director, Office of E-Health Standards and Services
Centers for Medicare & Medicaid Service
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 NATIONWIDE REVIEW OF THE
  CENTERS FOR MEDICARE &
 MEDICAID SERVICES HEALTH
 INSURANCE PORTABILITY AND
 ACCOUNTABILITY ACT OF 1996
        OVERSIGHT




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-04-07-05064
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

On August 21, 1996, Congress enacted P.L. No. 104-191, the Health Insurance Portability and
Accountability Act of 1996 (HIPAA). Sections 261 and 262 of HIPAA established national
standards that protect the confidentiality and integrity of electronic protected health information
(ePHI) while it is being stored or transmitted between entities.

The HIPAA Administrative Simplification was added to the Social Security Act (the Act) in
sections 1171 through 1179. The HIPAA Security Rule is a component of the HIPAA
Administrative Simplification security standards and is integrated into 45 CFR parts 160, 162,
and 164. Both the Act and the HIPAA Security Rule require a covered entity, such as a health
plan or health care provider that transmits any health information in electronic form (45 CFR
§ 160.103(3)), to (1) ensure the integrity and confidentiality of the information, (2) protect
against any reasonably anticipated threats or risks to the security or integrity of the information,
and (3) protect against unauthorized uses or disclosures of the information (HIPAA,
P.L. No. 104-191, § 262, 45 CFR part 164, subpart C).

On October 7, 2003, the Department of Health and Human Services delegated to the Centers for
Medicare & Medicaid Services (CMS) (1) the authority and responsibility to interpret,
implement, and enforce the HIPAA Security Rule provisions; (2) the authority to conduct
compliance reviews and to investigate and resolve complaints of HIPAA Security Rule
noncompliance; and (3) the authority to impose civil monetary penalties for a covered entity’s
failure to comply with the HIPAA Security Rule provisions. The Final Rule for enforcement of
this delegation became effective on February 16, 2006.

The Office of E-Health Standards and Services developed and published HIPAA Security Rule
regulations and guidance materials for covered entities. An example is the March 25, 2005,
Federal Register notice on how to file a complaint (70 Fed. Reg. 15329). The Office of E-Health
Standards and Services also published a series of security papers to give covered entities insight
into the HIPAA Security Rule and assistance with implementation of the security standards.

OBJECTIVE

Our objective was to evaluate CMS’s oversight and enforcement of covered entities’
implementation of the HIPAA Security Rule.

SUMMARY OF FINDINGS

CMS had taken limited actions to ensure that covered entities adequately implement the HIPAA
Security Rule. These actions had not provided effective oversight or encouraged enforcement of
the HIPAA Security Rule by covered entities. Although authorized to do so by Federal
regulations, CMS had not conducted any HIPAA Security Rule compliance reviews of covered
entities. To fulfill its oversight responsibilities, CMS relied on complaints to identify any
noncompliant covered entities that it might investigate. As a result, CMS had no effective

                                                  i
mechanism to ensure that covered entities were complying with the HIPAA Security Rule or that
ePHI was being adequately protected.

Although reliance on complaints alone was ineffective for identifying noncompliant covered
entities, we noted that CMS had an effective process for receiving, categorizing, tracking, and
resolving complaints. CMS had developed and implemented detailed procedures for receiving
complaints, communicating with filed-against entities, coordinating with the Office for Civil
Rights for complaints that potentially violate both the HIPAA Security and Privacy Rules,
developing corrective action plans, and remediating complaints.

Our ongoing audits of various hospitals nationwide indicate that CMS needs to become proactive
in overseeing and enforcing implementation of the HIPAA Security Rule by focusing on
compliance reviews. Preliminary results of these audits show numerous, significant
vulnerabilities in the systems and controls intended to protect ePHI at covered entities. These
vulnerabilities place the confidentiality and integrity of ePHI at high risk. During our audit,
CMS began taking steps to conduct compliance reviews. After we completed our fieldwork but
before we issued our report, CMS executed a contract to conduct compliance reviews at covered
entities.

RECOMMENDATION

We recommend that CMS establish policies and procedures for conducting HIPAA Security
Rule compliance reviews of covered entities.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

CMS did not agree with our findings because it believes that its complaint-driven enforcement
process has furthered the goal of voluntary compliance. CMS agreed, however, that compliance
reviews are a useful enforcement tool as part of a more comprehensive enforcement strategy that
also includes complaint investigation and resolution, outreach, education, and working closely
with industry to identify and correct security issues.

CMS agreed with our recommendation to establish specific policies and procedures for
conducting compliance reviews of covered entities but emphasized that compliance reviews are
just one of several tools that can be used to promote compliance as part of a comprehensive
enforcement strategy. CMS’s comments are included in their entirety in the Appendix.

Although CMS’s complaint-driven enforcement process has furthered the goal of voluntary
compliance, the significant vulnerabilities we identified at hospitals throughout the country
would not generally have been identified in HIPAA Security Rule complaints. In fact, CMS has
received very few complaints regarding potential HIPAA Security Rule violations. Including
compliance reviews of covered entities in its oversight process will enhance CMS’s ability to
determine whether the HIPAA Security Rule is being properly implemented.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION................................................................................................................... 1

          BACKGROUND .......................................................................................................... 1
              Delegation of Authority To Administer the Health Insurance
               Portability and Accountability Act of 1996 Security Rule ............................ 1
              Office of E-Health Standards and Services ...................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................ 2
               Objective ........................................................................................................... 2
               Scope................................................................................................................. 2
               Methodology ..................................................................................................... 3

FINDINGS AND RECOMMENDATION............................................................................ 3

          FEDERAL AUTHORITIES RELATING TO ENFORCEMENT OF
           THE HEALTH INSURANCE PORTABILITY AND ACCOUNTABILITY
           ACT OF 1996 SECURITY RULE ............................................................................ 4

          LIMITED ACTION TO ENSURE COMPLIANCE .................................................... 5

          COMPLIANCE REVIEW PROCEDURES NOT ESTABLISHED............................ 5

          ELECTRONIC PROTECTED HEALTH INFORMATION AT RISK ....................... 5

          RECOMMENDATION ................................................................................................ 5

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ................. 6

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................... 6

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

On August 21, 1996, Congress enacted P.L. No. 104-191, the Health Insurance Portability and
Accountability Act of 1996 (HIPAA). Sections 261 and 262 of HIPAA established national
standards that protect the confidentiality and integrity of electronic protected health information
(ePHI) while it is being stored or transmitted between entities.

The HIPAA Administrative Simplification was codified in sections 1171 through 1179 of the
Social Security Act (the Act). The HIPAA Security Rule is a component of the HIPAA
Administrative Simplification security standards and is integrated into 45 CFR parts 160, 162,
and 164. Both the Act and the HIPAA Security Rule require a covered entity, defined as a health
plan, health care clearinghouse, or health care provider that transmits any health information in
electronic form (45 CFR § 160.103(3)) to (1) ensure the integrity and confidentiality of the
information, (2) protect against any reasonably anticipated threats or risks to the security or
integrity of the information, and (3) protect against unauthorized uses or disclosures of the
information (HIPAA, P.L. No. 104-191, § 262, 45 CFR part 164, subpart C).

Delegation of Authority To Administer the Health Insurance Portability
and Accountability Act of 1996 Security Rule

On October 7, 2003, the Department of Health and Human Services (HHS) delegated to the
Centers for Medicare & Medicaid Services (CMS) (1) the authority and responsibility to
interpret, implement, and enforce the HIPAA Security Rule provisions; (2) the authority to
conduct compliance reviews and to investigate and resolve complaints of HIPAA Security Rule
noncompliance; and (3) the authority to impose civil monetary penalties for a covered entity’s
failure to comply with the HIPAA Security Rule provisions. The Final Rule for enforcement of
this delegation became effective on February 16, 2006.

Office of E-Health Standards and Services

To bring together its responsibilities under HIPAA, including enforcement, CMS created a new
office in 2002 that later became known as the Office of E-Health Standards and Services
(OESS). Some of the functions for which CMS created OESS included:

   •   developing regulations and guidance materials and providing technical assistance on the
       HIPAA Administrative Simplification provisions for transactions, code sets, identifiers,
       and security;

   •   developing and implementing the enforcement program for HIPAA Administrative
       Simplification provisions; and

   •   developing and implementing an outreach program for HIPAA Administrative
       Simplification provisions by formulating and coordinating a public relations campaign,


                                               1
        preparing and delivering presentations and speeches, responding to inquiries on HIPAA
        issues, and maintaining liaison with industry representatives.

OESS developed and published HIPAA Security Rule regulations and guidance materials for
covered entities. An example includes the March 25, 2005, Federal Register notice on how to
file a complaint (70 Fed. Reg. 15329). OESS also published a series of security papers designed
to give covered entities insight into the HIPAA Security Rule and assistance with
implementation of the security standards. These publications explained specific requirements,
the thought process behind those requirements, and possible ways to address the provisions.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to evaluate CMS’s oversight and enforcement of covered entities’
implementation of the HIPAA Security Rule.

Scope

Our audit focused primarily on determining whether CMS effectively:

    •   identified and investigated HIPAA Security Rule violations,
    •   ensured covered entity compliance with the HIPAA Security Rule, and
    •   imposed civil monetary penalties for violations of the HIPAA Security Rule.

We reviewed CMS’s oversight and enforcement activities from October 7, 2003, when it
received the delegation of authority and responsibility to interpret, implement, and enforce the
nonprivacy HIPAA regulations, 1 through August 24, 2007.

We conducted our fieldwork from July 25, 2007, through August 24, 2007, at CMS headquarters
in Baltimore, Maryland.

Our review of CMS’s internal controls was limited to the controls in place to provide oversight
and enforcement of the HIPAA Security Rule.




1
 The authority for administering and enforcing compliance with the HIPAA Privacy Rule has been delegated to the
HHS Office of Civil Rights (OCR) (65 Fed. Reg. 82381 (Dec. 28, 2000)). The authority for administering and
enforcing compliance with the nonprivacy HIPAA rules has been delegated to CMS (68 Fed. Reg. 60694 (Oct. 23,
2003)).

                                                     2
Methodology

To accomplish our objective, we:
   •   reviewed applicable Federal requirements,
   •   reviewed CMS’s policies and procedures for identifying and investigating alleged
       HIPAA Security Rule provision violations,
   •   reviewed the HIPAA Security Rule guidance CMS made available to covered entities,
   •   reviewed OESS’s organizational charts,
   •   interviewed OESS and OCR officials to determine how complaints with security and
       privacy elements were coordinated,
   •   interviewed CMS Office of the General Counsel officials to determine the CMS process
       for assessing civil monetary penalties, and
   •   tested for completeness OESS’s complaint-processing methodology and documentation
       using selected complaints from OESS’s Administrative Simplification Enforcement Tool.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

CMS had taken limited actions to ensure that covered entities adequately implement the HIPAA
Security Rule. These actions had not provided effective oversight or encouraged enforcement of
the HIPAA Security Rule by covered entities. Although authorized to do so by Federal
regulations as of February 16, 2006, CMS had not conducted any HIPAA Security Rule
compliance reviews of covered entities. To fulfill its oversight responsibilities, CMS relied on
complaints to identify any noncompliant entities that it might investigate. As a result, CMS had
no effective mechanism to ensure that covered entities were complying with the HIPAA Security
Rule or that ePHI was being adequately protected.

Although reliance on complaints alone was ineffective for identifying noncompliant covered
entities, we noted that CMS had an effective process for receiving, categorizing, tracking, and
resolving complaints. CMS had developed and implemented detailed procedures for receiving
complaints, communicating with filed-against entities, coordinating with OCR for complaints
about potential violations of both the HIPAA Security and Privacy Rules, developing corrective
action plans, and remediating complaints.

Our ongoing audits of various hospitals nationwide indicate that CMS needs to become proactive
in overseeing and enforcing implementation of the HIPAA Security Rule by focusing on
compliance reviews. Preliminary results of these audits show numerous, significant
vulnerabilities in the systems and controls intended to protect ePHI at covered entities. These

                                             3
vulnerabilities place the confidentiality and integrity of ePHI at high risk. During our audit,
CMS began taking steps to conduct compliance reviews. After we completed our fieldwork but
before we issued our report, CMS executed a contract to conduct compliance reviews at covered
entities.

FEDERAL AUTHORITIES RELATING TO ENFORCEMENT OF THE HEALTH
INSURANCE PORTABILITY AND ACCOUNTABILITY ACT OF 1996
SECURITY RULE

Congress enacted sections 261 and 262 of HIPAA to establish national standards for protecting
the confidentiality and integrity of ePHI and for addressing all aspects of the security of ePHI
while it is being stored or transmitted between entities. The standards were implemented in
regulations in 45 CFR, parts 160, 162, and 164. The regulations relating to the general
administration (such as compliance reviews and civil money penalties) of the HIPAA Security
Rule are found in part 160; the applicable standards and implementation specifications for ePHI
are found in subpart C of part 164.

HHS delegated the authority and responsibility to CMS:

   •   to interpret, implement, and enforce the nonprivacy HIPAA regulations;
   •   to impose civil monetary penalties, including settlements, under section 1176 of the Act
       for a covered entity’s failure to comply with certain requirements and standards;
   •   to investigate complaints of noncompliance with the HIPAA Security Rule and to make
       decisions regarding the interpretation, implementation, and enforcement of it; and
   •   to conduct compliance reviews to determine whether covered entities are complying with
       the applicable administrative simplification provisions (68 Fed. Reg. 60694
       (Oct. 23, 2003)).

The Final Rule for the enforcement section of the HIPAA Administrative Simplification
amended 45 CFR subtitle A, subchapter C, parts 160 and 164, and was effective as of March 16,
2006. The Final Rule added subpart E to part 160, including section 160.402(a) relating to civil
money penalties:

       Subject to § 160.410, the Secretary will impose a civil money penalty upon a
       covered entity if the Secretary determines that the covered entity has violated an
       administrative simplification provision. [See 45 CFR § 402(a). See also
       71 Fed. Reg. 8427 (Feb. 16, 2006).]

The final rule also revised section 160.300 by eliminating the words “and the applicable
standards, requirements, and implementation specification of subpart E of part 164 [HIPAA
Privacy Rule] of this subchapter” and substituted the words “and parts 162 and 164 of this
subchapter.” This change made subpart C, “Compliance and Investigations,” applicable to all
the HIPAA implementing rules, including the HIPAA Security Rule. Before this revision,
regulations for conducting compliance reviews of the HIPAA Privacy Rule’s standards applied


                                              4
only to OCR. As a result of the revision, the same regulations now allow CMS to conduct
compliance reviews of the HIPAA Security Rule’s standards.

LIMITED ACTION TO ENSURE COMPLIANCE

From 2003 through the time of this audit, CMS had taken limited action to ensure that covered
entities complied with the HIPAA Security Rule. For the most part, these actions consisted of
following up on complaints it received. As of August 24, 2007, CMS had not conducted any
compliance reviews of covered entities to determine whether the HIPAA Security Rule was
being properly implemented.

COMPLIANCE REVIEW PROCEDURES NOT ESTABLISHED

CMS has had the authority and responsibility to interpret, implement, and enforce HIPAA
regulations since 2003. The February 16, 2006, Federal Register published implementing
regulations giving CMS a mechanism to conduct compliance reviews. However, as of
August 24, 2007, CMS had not established any policies or procedures for conducting compliance
reviews at covered entities. CMS officials explained that they were not conducting HIPAA
Security Rule compliance reviews because they relied solely on complaints to promote voluntary
compliance. This approach has met with limited success because CMS has received very few
complaints regarding potential HIPAA Security Rule violations. 2

ELECTRONIC PROTECTED HEALTH INFORMATION AT RISK

As of August 24, 2007, CMS had not implemented proactive compliance reviews and therefore
had no effective way to determine whether covered entities were complying with HIPAA
Security Rule provisions. Nor did CMS know how vulnerable ePHI was to attack by individuals
intent on accessing and misusing protected health information.

As part of our audit of CMS, we audited the HIPAA Security Rule implementation at one
hospital and found significant vulnerabilities in the hospital’s systems and controls intended to
protect ePHI. In addition, we began audits at seven other hospitals around the country. The
preliminary results have also identified significant vulnerabilities with the hospitals’
implementation of the administrative, technical, and physical safeguard provisions of the HIPAA
Security Rule. These vulnerabilities place the confidentiality and integrity of ePHI at risk and
would not generally be included in complaints.

RECOMMENDATION

We recommend that CMS establish policies and procedures for conducting HIPAA Security
Rule compliance reviews of covered entities.



2
 “As of October 31, 2005, OCR had received and initiated review of over 16,000 complaints and had closed
68 percent of the complaints; at the same time, CMS had received and initiated review of 413 complaints and closed
67 percent of the complaints” (71 Fed. Reg. 8424 (Feb. 16, 2006)).

                                                      5
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

CMS did not agree with our findings because it believes that its complaint-driven enforcement
process has furthered the goal of voluntary compliance. CMS agreed, however, that compliance
reviews are a useful enforcement tool as part of a more comprehensive enforcement strategy that
also includes complaint investigation and resolution, outreach, education, and working closely
with industry to identify and correct security issues.

CMS agreed with our recommendation to establish specific policies and procedures for
conducting compliance reviews of covered entities but emphasized that compliance reviews are
just one of several tools that can be used to promote compliance as part of a comprehensive
enforcement strategy.

CMS’s comments are included in their entirety in the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Although CMS’s complaint-driven enforcement process has furthered the goal of voluntary
compliance, the significant vulnerabilities we identified at hospitals throughout the country
would not generally have been identified in HIPAA Security Rule complaints. In fact, as of
October 31, 2005, CMS received only 413 potential Security Rule complaints out of more than
16,000 total HIPAA complaints HHS received. Adding compliance reviews of covered entities
to its oversight process will enhance CMS’s ability to determine whether the HIPAA Security
Rule is being properly implemented.




                                             6
APPENDIX
  ~S£.RV1CE;S
   ~ S£.RVIC~.
                                                                                                                                                  APPENDIX

(~ ~      DEPARTMENT OF HEALTH & HUMAN SERVICES                                                                          Centers
                                                                                                                         Centers for  Medicare &
                                                                                                                                  for Medicare
                                                                                                                                                   Page 1 of 3
                                                                                                                                               & Medicaid
                                                                                                                                                 Medicaid Services
                                                                                                                                                          Services

 ~<~~
 ~.:~
( g-l.'" . DEPARTMENT OF HEALTH & HUMAN SERVICES

  lt¡"d3a~
                                                                                                                         Office
                                                                                                                         Officeof
                                                                                                                                ofthe
                                                                                                                                   theAdministrator
                                                                                                                                       Administrator
                                                                                                                         Washington, DC
                                                                                                                         Washington, DC 20201




                 DATE:                JUN
                                      JUN 3302008
                                            0 2008




                                                                     l:~
                 TO:                 Daniel R.
                                     Daniel R. Levinson
                                     Inspector General

                 FROM:                        ~~/b"'~~~
                 SUBJECf:                Office
                 SUBJCl: Office ofth pector General ofth           pector
                                                    (OIG) Draft Report:       General
                                                                        "Nationwide         (OIG) Draft Report: "Nationwide Review of the
                                                                                    Review of


                                         Centers for Medicare &             & Medicaid Services Health Insurance Portability and
                                         Accountability Act of 1996 Oversight" (A-04-07-05064)


                 Thank you for the opportunity to                   to review and   and comment on        on the
                                                                                                             the above
                                                                                                                 above OIG
                                                                                                                        OIG Draft
                                                                                                                              Draft Report.
                                                                                                                                    Report. The OIG
                 report     is based
                 report is based          onconducted
                                  on an audit  an audit      conducted
                                                        in August             in August
                                                                  of2007 to evaluate           of2007
                                                                                     the effectiveness of
 to evaluate the effectiveness of the

                 Centers for Medicare &              & Medicaid Services' (CMS)          (CMS) oversight
                                                                                                     oversight and
                                                                                                                 and enforcement
                                                                                                                     enforcement ofofcovered
                                                                                                                                      covered
                 entities' implementation of              of the
                                                              the Health Insurance
                                                                                InsurancePortability
                                                                                                 Portability and
                                                                                                               and Accountability
                                                                                                                    Accountability Act (HIP   AA)
                                                                                                                                        (HIPAA)
                 Security Rule.Rule. The         draft    report     stated    that   CMS'      security    enforcement   actions
                                           The draft report stated that CMS' security enforcement actions have been limited       have  been  limited
                 and have not provided effective oversight or encouraged compliance of                                  of the Security Rule by
                 covered entities. CMS         CMS does not agree with the OIG's finding, as our experienceover
                                                       does    not    agree    with    the   OIG's     finding,  as our experience   overthe
                                                                                                                                          the past
                                                                                                                                               past
                 three    years illustrates
                 three years         ilustrates the effectiveness of             of our enforcement approach. approach. We believe
                                                                                                                              believe that our
                 complaint-driven
                 complaint-driven  enforcement enforcement
                                               process has furtheredprocess
                                                                     the goal of has
                                                                                 
     furthered the goal of voluntary compliance in
                 accordance with the principles set                 set out in in the
                                                                                   the HIPAA
                                                                                         HIPAA Enforcement
                                                                                                       Enforcement Rule
                                                                                                                      Rule at
                                                                                                                           at 45
                                                                                                                              45 C.F.R.
                                                                                                                                 C.F.R. 160.304.
                                                                                                                                         160.304.

                 As of April 21, 2005, CMS has received and processed more than 300
                 As of April 
                                                              300 security
                                                                                                 security complaints from
                 individuals and organizations across the country.
                                                              country. These
                                                                         These complaints
                                                                                complaints areare widespread
                                                                                                  widespread and
                                                                                                               and diverse,
                                                                                                                    diverse,
                 not only geographically, but
                                            but also with  respect
                                                     with respect   to the type  of
                                                                           type of  entity  complained   against.
                                                                                            complained against.
                 Complaints have been filed against
                                               against all
                                                       all sizes
                                                            sizes and
                                                                   and types
                                                                       types of
                                                                             ofcovered
                                                                                 covered entities
                                                                                           entities including
                                                                                                    including solo
                                                                                                              solo
                 practitioners, hospitals, pharmacy chains and health plans.      In
                                                                           plans. In addition,   the complaints  implicate a
                 range of
                        of Security Rule issues, from inappropriate
                                                       inappropriate access
                                                                         access controls
                                                                                controls for
                                                                                           for systems
                                                                                               systems containing
                                                                                                        containing
                 electronic protected health
                                       health information
                                              information to aa lack
                                                                  lack of
                                                                       of policies
                                                                          policies and
                                                                                    and procedures
                                                                                         procedures governing
                                                                                                      governing device
                                                                                                                  device and
                 media
                 mediadisposaL.
                         disposal.

                 When CMS has communicated
                                  communicated with
                                                  with covered
                                                       covered entities
                                                                 entities against
                                                                          against which
                                                                                  which aa complaint
                                                                                           complaint has has been
                                                                                                             been filed,
                                                                                                                   filed,
                 they have made appropriate and expedient efforts to comply and to mitigate each situation.
                                                                                                          situation. Thus
                                                                                                                       Thus
                 far, CMS'
                      CMS' investigations
                            investigationsofofcomplaints
                                               complaintsshow
                                                          showthat
                                                                 thatfew
                                                                      fewififany
                                                                              anyof
                                                                                  ofthe
                                                                                     theviolations
                                                                                         violationshave
                                                                                                     havebeen
                                                                                                            beenthe
                                                                                                                  the result
                                                                                                                       result
                 of
                 of intentional non-compliance or malicious intent. We further note that that CMS
                                                                                              CMS and and the
                                                                                                           the Office
                                                                                                               Offce forfor
                 Civil Rights
                       Rights (OCR),
                              (OCR), inin conjunction
                                          conjunction with
                                                      with the
                                                            the Office
                                                                Office of
                                                                        ofGeneral
                                                                           General Counsel,
                                                                                    Counsel, have
                                                                                               have both
                                                                                                      both adopted
                                                                                                            adopted this
                                                                                                                      this
                 complaint based,
                            based, voluntary
                                   voluntary compliance
                                              compliance enforcement
                                                          enforcement approach
                                                                          approach for
                                                                                    for complaint
                                                                                        complaint allegations
                                                                                                     allegations that
                                                                                                                  that
                 implicate
                 implicate both the Privacy and Security Rule. Complaints
                                                                  Complaintsthatthatappear
                                                                                     appeartoto involve
                                                                                                 involve both
                                                                                                          both rules
                                                                                                                rules are
                                                                                                                       are
                                                                                                                                   APPENDIX
Page 22 -- Daniel
Page       Daniel R.
                  R. Levinson
                     Levinson                                                                                                       Page 2 of 3


handled cooperatively
handled cooperatively between
                        between CMS
                                 CMS and
                                      and OCR,
                                           OCR, and
                                                  and if an
                                                         an onsite
                                                            onsite evaluation
                                                                   evaluation is
                                                                              is deemed
                                                                                 deemed
appropriate, the
appropriate,  the two
                  two agencies
                      agencies coordinate
                               coordinate that
                                          that activity.
                                               activity.

In  summary,
In summary, while we while    we
                     differ with the differ   withthatthe
                                     OIG's findings        OIO's
                                                        CMS'          findings
                                                             approach to enforcement that
                                                                                      of
 CMS' approach to enforcement of the the
Security Rule
Security      Rule isis inadequate,
                           inadequate, we     we do do agree
                                                        agree that
                                                                 that compliance
                                                                        compliance reviewsreviews are a useful
                                                                                                        useful enforcement tool
                                                                                                                            tool
as part
as  part of of aa more
                   more comprehensive
                            comprehensive enforcementenforcement strategystrategy that alsoalso includes complaint
                                                                                                         complaint investigation
                                                                                                                    investigation
and resolution,
and    resolution, outreach,
                         outreach, education,
                                        education, and working closely with industry to identify and correct
security
security     issues.

We address
We address the
           the report's
               report's Recommendation/Suggestions
                        Recommendation/Suggestions below.
                                                   below.

OIG
OIG Recommendation
    Recommendation


The 010
The  GIG recommends that CMS establish policies and procedures for conducting compliance
reviews of covered entities.

CMS Response

The 010GIG equates the effectiveness
                                  effectiveness ofCMS'   ofCMS' enforcement
                                                                       enforcementactivities
                                                                                      activitieswith
                                                                                                withthe
                                                                                                      the presence
                                                                                                          presence oror absence
                                                                                                                        absence
of
of a a compliance
     compliance           review
                review program.       program.
                                We agree               We
                                         that compliance     agree
                                                         reviews       that
                                                                 are part     compliance reviews are part of a comprehensive
                                                                          of a



enforcement strategy, but also feel that they are but one of                        of several tools that can be used to
promote compliance. GIG's           OIO'ssingular
                                               singularfocusfocuson   oncompliance
                                                                           compliancereviews
                                                                                       revie~sneglects
                                                                                                 neglectsthe
                                                                                                           the value
                                                                                                               value that
                                                                                                                      that other
                                                                                                                           other
methods, such as complaint investigation and resolution, increased outreach to industry, and
education, have demonstrated in improving compliance.

Nonetheless, CMS does not disagree with the OIG                          010 recommendation for the establishment of           of a
specific policy and accompanying procedures for conducting compliance                      compliance reviews of     of covered
                                                                                                                        covered
entities against which a complaint      complaint has    has been filed
                                                                      filed or
                                                                             or entitIes
                                                                                entitIes that have been
                                                                                                      been deemed appropriate
for review by other means.       means. At    At the
                                                   the time
                                                         time ofofthe
                                                                    the audit,
                                                                          audit, CMS
                                                                                 CMS waswas already developing a Statement of
Work to secure professional services            services conduct compliance reviews,
                                                             to conduct     compliance    reviews, as as authorized
                                                                                                         authorized by by the
Enforcement Rule. AAcontract         contractwas   was executed
                                                          executed with with PriceWaterhouseCoopers
                                                                              PriceWaterhouseCoopers in       in 2007,
                                                                                                                  2007, which
includes onsite reviews of              of certain covered entities. The        The onsite review not only assesses the
                                                                                     onsite  review   not  only   assesses
entity's
entity's     compliance
         compliance                 of 
 the facts of the allegations,
                                  with
                     with the facts                              allegations, butbut includes
                                                                                      includes aa more
                                                                                                   more comprehensive
                                                                                                          comprehensive
assessment
assessment of 
     of the entity's
                              entity'soverall
                                           overall security
                                                       securitypractices,
                                                                   practices,riskriskassessment,
                                                                                      assessment,policies
                                                                                                      policiesand
                                                                                                                andprocedures
                                                                                                                     procedures andand
the like. AAlist    listofofpotential
                              potentialpolicies,
                                             policies,procedures
                                                            proceduresand   anddocuments
                                                                                 documents thatthat could
                                                                                                    could bebe included
                                                                                                                included in
                                                                                                                          in these
                                                                                                                             these
reviews
reviews was   was posted to       to the
                                      the eMS
                                            eMS Website          in  late
                                                     Website in late 2007.-2007."   This initiative  complements      the existing
                                                                                         initiative complements the existing
complaint
complaint management
                 management process     process at   at CMS,
                                                         CMS, and and was
                                                                        was anan appropriate
                                                                                 appropriate step
                                                                                                step towards
                                                                                                      towards expanding
                                                                                                                 expanding the
                                                                                                                             the
enforcement tactics to monitor compliance with the Rule. CMS                            CMS and and OIG
                                                                                                     010 are
                                                                                                           are currently
                                                                                                                currently
considering
considering an       an arrangement
                          arrangement to       to collaborate
                                                   collaborate on  on future
                                                                         future compliance
                                                                                 compliance reviews
                                                                                                reviews and
                                                                                                          and enforcement
                                                                                                               enforcement efforts
                                                                                                                               efforts
forfiscal
for   fiscal
           year year
                2009 to 2009     tooncapitalize
                         capitalize                   on the
                                       the review strengths of
 review strengths ofthe   the OIG,
                                                                                              010, and
                                                                                                     and the
                                                                                                          the HIPAA
                                                                                                               HIPAA security
                                                                                                                        security
expertise
expertise of    of CMS.
                     CMS.

As
As mentioned
   mentionedabove,
             above, CMS
                    CMSfeels
                        feelsthat
                              thatoutreach
                                   outreachand
                                            andeducation
                                                educationare
                                                          are also
                                                              also critical
                                                                   criticalparts
                                                                            partsofofan
                                                                                      an"effective
                                                                                         ·effective
enforcement
 enforcement strategy
                strategy and
                          and we
                              we have
                                 have now
                                      now begun
                                           begun targeting
                                                  targeting issues
                                                             issues that
                                                                     that have
                                                                          have been
                                                                                been identified
                                                                                      identified during
                                                                                                 during
the  complaint   and  review processes. We  believe  that the combination    of enforcement
 the complaint and review processes. We believe that the combination of enforcement and        and
education
 education is
            is an
               an appropriate
                   appropriate approach
                               approach that wil
                                             willeffectively
                                                  effectivelyreach
                                                               reachthe
                                                                      theindustry
                                                                           industryon
                                                                                    onaabroader
                                                                                         broaderscale,
                                                                                                   scale,
                                                                                                                APPENDIX
 Page33--Daniel
Page     DanielR.
                R.Levinson
                  Levinson                                                                                       Page 3 of 3


 andalso
and  alsofurnish,
          furnish,as
                   asappropriate,
                      appropriate,technical
                                     technical assistance
                                               assistance toto covered
                                                               covered entities
                                                                         entities to
                                                                                   to help
                                                                                       help them
                                                                                             them achieve
                                                                                                    achieve
 compliance.  In 2008,   CMS    began  to post case  studies  based  on  complaint
compliance. In 2008, CMS began to post case studies based on complaint data on to the  data  on  to the CMS
                                                                                                         CMS
 Website. The
Website.   The purpose
               purpose isis to
                             to enable
                                enablethe
                                        theindustry
                                            industrytotobenefit
                                                         benefitfrom
                                                                  from the
                                                                        the issues
                                                                             issuesidentified
                                                                                      identifiedfrom
                                                                                                  from anan
 individualcase
individual  caseor
                 orcompliance
                    compliancereview.
                                   review. Other
                                            Other educational
                                                   educational tools
                                                                 tools and
                                                                       and activities
                                                                              activities already
                                                                                         already in in place
                                                                                                       place
 includeFrequently
include  Frequently Asked
                      Asked Questions,
                              Questions, guidance
                                          guidance documents,
                                                     documents, and and educational
                                                                         educational papers,
                                                                                        papers, asas well
                                                                                                     well as
                                                                                                           as
 CMSparticipation
CMS    paricipation at
                     at industry
                        industry conferences.
                                  conferences. These
                                                 These resources     heighten the
                                                        resources heighten       the industry's
                                                                                     industry's
 understanding  of HIP   AA   security requirements   and  the  various  means
understanding of HIPAA security requirements and the various means by which       by  which entities
                                                                                               entities can
                                                                                                        can
 comply.
comply.

Again, we
Again, we appreciate
          appreciate the
                     the opportunity
                         opportunity to
                                     to review
                                        review and
                                               and comment
                                                   comment on
                                                           on this
                                                              this draft
                                                                   draft report.
                                                                         report.
